               Performance Audit Report




   The SBA’s FY 2012 Reported Improper Payment Rate for

Disbursements and Contracting was Inaccurate and Incomplete
                                 U.S. Small Business Administration
                                     Office of Inspector General
                                       Washington, D.C. 20416


                                                                                       REPORT TRANSMITTAL
                                                                                         REPORT NO. 14-02

DATE:           October 24, 2013

T O:            Jonathan Carver
                Chief Financial Officer

SUBJECT:        The SBA’s FY 2012 Reported Improper Payment Rate for Disbursements and Contracting
                was Inaccurate and Incomplete

This report presents the results of our project, Audit of the Small Business Administration’s FY 2012
Invoice Payments for Contracting Activities. Our objectives were to determine: 1) whether Small
Business Administration (SBA) management designed and implemented invoicing and payment
processes for disbursements and contracting that will prevent improper payments and identify them
after payment has been made, and 2) the accuracy of SBA’s FY 2012 reported improper payment rate
for disbursements and contracting invoices.

Please provide your management decision for each recommendation on the attached SBA Forms 1824s,
Recommendation Action Sheets, by November 25, 2013.

Consistent with OMB Circular A‐50, your response should include the corrective action(s) taken or
planned for each recommendation and the target date(s) for completion. If you disagree with the
recommendations, please fully explain the reasons for disagreement. Please include the legal basis for
disagreement based on interpretation of the law, regulations, or the authority of officials to take or not
to take action. You may also propose alternative actions to those recommended that you believe would
better address the issues presented in this report.

We appreciate the courtesies and cooperation of the Office of the Chief Financial Officer during this
audit. If you have any questions concerning this report, please call me at (202) 205-7100 or
Riccardo R. Buglisi, Director, Business Development Programs Group, (202) 205-7489.

                                                   ***


/s/
Robert A. Westbrooks
Deputy Inspector General
What the OIG Audited                                    documentation. We determined that the complete
                                                        FY 2012 improper payment rate for disbursements
This report presents the results of the Office of       and contracting exceeded 10 percent.
Inspector General’s Audit of the SBA’s FY 2012
Invoice Payments for Contracting Activities. The OIG    We reviewed 42 of the SBA’s 216 sample invoices
initiated this review in response to a significant      and found that 18 payments, approximately
reduction in the improper payment rate for              $7.63 million, were improper. The SBA’s review
disbursements and contracting in FY 2012. The           found that only seven, for a total of $1.92 million,
objectives of this audit were to determine:             were improper.
1) whether SBA management designed and
implemented invoicing and payment processes for         We found that SBA personnel did not consistently
disbursements and contracting that would prevent        apply the FY 2012 Improper Payment Test Plan for
improper payments and identify them after payment       disbursements and contracting. Consequently, they
has been made, and 2) the accuracy of the SBA’s         classified a number of payments as having met the
FY 2012 reported improper payment rate for              test plan criteria. In addition, they tested payments
disbursements and contracting invoices.                 not related to contracting disbursements.

To achieve our objectives, we identified and            OIG Recommendations and Agency Comments
reviewed federal and SBA invoicing and payment
processes for disbursements and contracting. In         The OIG originally recommended seven actions
addition, we statistically and judgmentally selected    directed to the Chief Financial Officer to improve
42 of the SBA’s 216 sample invoices to review. In       financial and contract management at the SBA and
order to identify any exceptions (non-compliant         significantly decrease the total number of future
items or errors) and to determine the accuracy of the   improper payments. On August 15, 2013, we
SBA’s improper payment rate, we reviewed each of        provided a draft report to SBA management for
these 42 payments and the associated contracting        official comment. On September 16, 2013, we
documentation by applying the SBA’s FY 2012             received comments from the Office of the Chief
Improper Payment Test Plan.                             Financial Officer (OCFO). Based on management’s
                                                        comments and documentation provided by the
What the OIG Found                                      OCFO, we revised the final report accordingly and
                                                        removed three recommendations.
The SBA made significant progress in reducing the
improper payment rate for disbursements and
contracting from 89 percent in FY 2011 to
9.6 percent in FY 2012. However, our audit
determined that the information presented in the
SBA’s FY 2012 Agency Financial Report (AFR) was
inaccurate and the reported improper payment rate
for FY 2012 disbursements and contracting was
incomplete. Specifically, the 9.6 percent improper
payment rate included only a portion of the errors
identified as the SBA did not report errors that it
determined to be the result of inadequate or missing
Table of Contents
Introduction .................................................................................................................................................. 1

Results ........................................................................................................................................................... 5

   Finding: SBA’s FY 2012 Reported Improper Payment Rate for Disbursements and Contracting was

   Inaccurate and Incomplete ....................................................................................................................... 5

       Office of Internal Controls Personnel Did Not Consistently Apply the FY 2012 Improper Payment

       Test Plan for Disbursements and Contracting ...................................................................................... 5

       Office of Internal Controls Review and Accuracy of Improper Payment Testing ................................. 7

       Conclusion........................................................................................................................................... 10

       Recommendations .............................................................................................................................. 10

       Agency Comments and Office of Inspector General Response .......................................................... 11

Appendix I: Scope and Methodology ......................................................................................................... 17

   Use of Computer Processed Data ........................................................................................................... 17

   Prior Coverage......................................................................................................................................... 18

Appendix II: Payments Reviewed by the OIG ............................................................................................. 19

Appendix III: Final Statistician Improper Payment Calculations ................................................................. 20

Appendix IV: Documentation Errors the SBA Identified in its Review but Excluded from Its Improper

Payment Rate Calculation ........................................................................................................................... 21

Appendix V: Agency Comments ................................................................................................................. 22
           Introduction
           This report presents the results of our Audit of the Small Business Administration’s FY 2012
           Invoice Payments for Contracting Activities. In FY 2011, the Small Business Administration
           (SBA or the agency) published an improper payment rate of 89 percent for disbursements and
           contracting. However, in its FY 2012 Agency Financial Report (AFR), the SBA reported an
           improper payment rate of only 9.6 percent for disbursements and contracting. The Office of
           Inspector General (OIG) initiated this audit in response to the significant decrease in improper
           payments reported for disbursements and contracting.

           Objectives

           There were two objectives for this audit: 1) to determine whether SBA management designed
           and implemented invoicing and payment processes for disbursements and contracting that
           would prevent improper payments and identify them after payment has been made, and
           2) to determine the accuracy of the SBA’s FY 2012 reported improper payment rate for
           disbursements and contracting invoices.

           To meet these objectives, we identified and reviewed federal and agency-specific invoicing and
           payment processes for disbursements and contracting. In addition, we used the SBA’s FY 2012
           improper payment review sample of 216 unique disbursements and contracting invoices as our
           universe. We statistically and judgmentally selected 42 of the 216 invoices to include in our
           sample. The judgmental portion of our sample included the ten percent of invoices with the
           highest value, as well as all invoices that were not associated with an SBA contract. We
           statistically selected an additional ten percent of invoices using a stratified random sampling
           method. In order to identify any exceptions and to determine the accuracy of SBA’s improper
           payment rate, we reviewed each of these 42 payments and the associated contracting
           documentation by applying the SBA’s FY 2012 Improper Payment Test Plan. See Appendix II:
           Payments Reviewed by OIG for more information on the payments within our sample.

           We conducted this audit from November 2012 to May 2013 in accordance with generally
           accepted government auditing standards. Those standards require that we plan and perform
           the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
           findings and conclusions based on our audit objectives. We believe that the evidence obtained
           provides a reasonable basis for our findings and conclusions based on our audit objectives.

           Background

           An improper payment is one that should not have been made or one that was made in an
           incorrect amount under statutory, contractual, administrative, or other legally applicable
           requirements. In addition, an improper payment is one made to an ineligible recipient, for
           ineligible goods or services, or for goods and services not received.1 Further, when an agency’s
           review is unable to discern whether a payment was proper as a result of insufficient or lack of
           documentation, this payment must also be considered an error. The Improper Payments


1
    OMB Memorandum M-10-13, Issuance of Part III to OMB Circular A-123, Appendix C, March 22, 2010.

                                                             1
         Elimination and Recovery Act of 2010 (IPERA),2 an amendment to the Improper Payments
         Information Act of 2002 (IPIA),3 expanded the scope of susceptible programs and activities that
         agencies are required to assess when identifying and estimating improper payments.

         In addition, IPERA, Office of Management and Budget (OMB) Circular A-123, Management’s
         Responsibility for Internal Control,4 and OMB Circular A-136, Financial Reporting Requirements,5
         require agencies to report improper payment annual estimate amounts for susceptible
         programs and activities in their yearly Performance and Accountability Report (PAR) or Agency
         Financial Report (AFR). As a result of IPERA’s expanded scope, the SBA was required to assess
         improper payments for disbursements and contracting beginning in FY 2011. Previously, the
         SBA had not conducted a risk assessment or reviewed improper payments for disbursements
         and contracting. In its FY 2011 AFR,6 the SBA identified disbursements and contracting as a high-
         risk program and published an 89 percent improper payment rate for the year.

         As required by IPERA and OMB Circular A-123, the OIG reviewed the agency’s FY 2011 AFR to
         determine whether the SBA reported improper payments for contracting activities in
         compliance with IPIA and IPERA. On March 8, 2012, the OIG issued Advisory Memorandum
         12-07, The SBA’s Improper Payment Review and Reporting for its Contracting Activities Did Not
         Comply with IPERA and IPIA Requirements During FY 2011.7 In this memorandum the OIG
         concluded that the SBA reported an incomplete improper payment rate of 89 percent for
         FY 2011 contracting activities. In addition, the OIG found that the SBA did not report improper
         payments for contracting activities in accordance with IPIA and IPERA requirements.

         The SBA’s Improper Payment Review

         Between April 1, 2011, and March 31, 2012, the SBA made 7,622 disbursements for goods and
         services, totaling approximately $130 million. The SBA conducted a review of these
         disbursements using a sample of 216 unique invoices, valued at approximately $47 million.
         The assessment covered three areas: invoice accuracy, compliance with contract terms, and
         invoice processing accuracy. Based on the results of this review, the SBA reported a 9.6 percent
         or $12.5 million improper payment rate for contracting. According to the agency’s FY 2012
         AFR,8 the nature of the errors related to administration and documentation errors.
         The root causes for these payment errors were:

                 Inadequate comparison of the invoice to the contract to verify period of performance,
                  labor rates, and categories to ensure they agree;
                 Payment accuracy issues where the financial system was not updated with current
                  (at the time of payment) information from the Central Contractor Registry (CCR), now
                  the System for Award Management (SAM);

2
  Public Law 111-204, Improper Payments Elimination and Recovery Act, July 22, 2010.
3
  Public Law 107-300, Improper Payments Information Act of 2002, November 26, 2002.
4
  OMB Circular A-123, Management’s Responsibility for Internal Control, December 21, 2004.
5
  OMB Circular A-136, Financial Reporting Requirements, Revised August 3, 2012.
6
  U.S. Small Business Administration Agency Financial Report Fiscal Year 2011, November 15, 2011.
7
  SBA Office of the Inspector General (OIG) Advisory Memorandum Number 12-07, The SBA’s Improper Payment
  Review and Reporting for its Contracting Activities Did Not Comply with IPERA and IPIA Requirements During
  FY 2011, March 8, 2012.
8
  U.S. Small Business Administration Agency Financial Report Fiscal Year 2011, November 15, 2012.

                                                             2
                    Amounts paid were different than what was recommended for payment; and
                    Interest over-payments due to improper prompt payment data selection criteria.

            FY 2012 Improper Payments Review

            The OIG conducted its FY 2012 IPERA review to evaluate the effectiveness of controls and
            process improvements the SBA had implemented since FY 2011. On March 14, 2013, the OIG
            issued Evaluation Report 13-13, Evaluation of SBA’s Progress in Reducing Improper Payments in
            FY 2012.9 As a result of this review, the OIG determined that the SBA developed a corrective
            action plan, target dates, and implemented corrective actions to address improper payments
            within disbursements and contracting. Within the scope of this evaluation, however, we were
            unable to evaluate the accuracy and completeness of agency reporting for FY 2012
            disbursements and contracting. Furthermore, we noted that certain payments with
            documentation errors appeared to have been excluded from the SBA’s improper payment
            calculations. Lastly, the OIG found that the SBA did not reach a management decision or take
            final action on three of the five recommendations that the OIG made via Advisory Memorandum
            12-07, issued on March 8, 2012.

            Nature of Limited or Omitted Information

            We reviewed a statistical and judgmental sample of SBA’s invoice payments for disbursements
            and contracting from April 1, 2011, through March 31, 2012. The OIG sample was derived from
            the SBA’s FY 2012 improper payment review sample of 216 unique invoices. See Appendices I
            and II, pages 18 and 20, for additional details.

            Review of Internal Controls

            The Office of Management and Budget’s Circular A-123 provides guidance to federal managers
            on improving the accountability and effectiveness of federal programs and operations by
            establishing, assessing, correcting, and reporting on internal controls. It also requires a
            strengthened process for conducting management’s assessment of the effectiveness of internal
            controls over financial reporting based on widely recognized internal control standards.

            We determined that the SBA Accounts Payable and Administrative Accounting Divisions had
            planned and implemented a number of improvements to the invoice processing and approval
            procedures that improved the agency’s ability to prevent and identify improper payments.
            For example, the Denver Finance Center implemented the Joint Administrative Accounting
            Management System (JAAMS) automated processes for invoice processing and approval on
            December 1, 2011. Additionally, in January 2012 the Denver Finance Center implemented a
            system to generate follow-up alerts, which are sent to accounting technicians, contracting
            officers, and supervisors when a designated individual fails to review invoices or provide
            approval within an allotted time frame. The SBA also intends for the Procurement Information
            System for Management (PRISM) and JAAMS to be fully interfaced— at the detail level—no later
            than February 2014.


9
    Office of the Inspector General (OIG) Evaluation Report Number 13-13, Evaluation of SBA’s Progress in
    Reducing Improper Payment in FY 2012, March 14, 2013.

                                                                 3
According to personnel in the Accounts Payable Division, this system has increased the speed
with which invoices are reviewed and approved by accounting technicians, Contracting Officer’s
Representatives (CORs), contracting officers, and approving officials. The changes have also
decreased the SBA’s monthly interest payments; in FY 2011, the SBA paid average monthly
interest of $9,600. In FY 2012, the SBA paid average monthly interest of only $2,200. See Figure
1 for a month by month comparison of FY 2011 and FY 2012 interest payments.



  Figure 1 FY 2011 and FY 2012 SBA Monthly Interest Payment Comparison



                  17,500

                                                                         2011 Net Monthly Interest
                  15,500                                                 Payment
                                                                         2012 Net Monthly Interest
                                                                         Payment
                  13,500


                  11,500
      Thousands




                   9,500


                   7,500


                   5,500


                   3,500


                   1,500


                    -500   Oct   Nov   Dec   Jan       Feb   Mar   Apr     May    Jun    Jul   Aug   Sep




                                                   4
Results

 Finding: SBA’s FY 2012 Reported Improper Payment Rate for Disbursements and
 Contracting was Inaccurate and Incomplete

The SBA made significant progress in reducing the improper payment rate for disbursements
and contracting from 89 percent in FY 2011 to 9.6 percent in FY 2012. However, our audit
determined that this rate was inaccurate and incomplete. As a result, the SBA’s FY 2012 Annual
Financial Report (AFR) reflects an inaccurate improper payment rate for disbursements and
contracting.

IPERA Compliance Requirements

Agencies must meet the following requirements in order to comply with IPERA:

       Publish a Performance and Accountability Report (PAR) or AFR for the most recent fiscal
        year and publish that report and any accompanying materials required by OMB on the
        agency website;
       If required, conduct a program specific risk assessment for each program or activity as
        required by the IPIA;
       If required, publish improper payment estimates for all programs and activities
        identified as susceptible to significant improper payments under its risk assessment;
       Publish programmatic corrective actions plans in the PAR or AFR;
       Publish and meet annual reduction targets for each program assessed to be at risk and
        measured for improper payments; and
       Report a gross improper payment rate of less than 10 percent for each program and
        activity for which an improper payment estimate was obtained and published in the
        AFR.

Office of Internal Controls Personnel Did Not Consistently Apply the FY 2012 Improper
Payment Test Plan for Disbursements and Contracting

The SBA developed a test plan for conducting its FY 2012 improper payment review for
disbursements and contracting. The SBA hired a Certified Public Accounting (CPA) firm to
conduct this review in accordance with the test plan. However, the CPA firm’s personnel did not
receive the appropriate SBA security clearances and were directed to cease work prior to
completing their review. Consequently, personnel from the SBA’s Office of Internal Controls
completed the review. According to personnel from the Office of Internal Controls, they did not
review any of the payments that the CPA firm determined to be proper; rather, their review
focused on those payments for which the firm identified one or more exceptions. The SBA used
the term “exception” to identify errors in the invoice processing and payment procedures for
each of the payments included in its sample of 216 unique invoices. If a payment contained at
least one exception, the SBA categorized the payment as improper.

We determined that Office of Internal Controls personnel did not consistently apply the test
plan when completing the FY 2012 improper payment review for disbursements and



                                           5
         contracting. Specifically, the SBA’s FY 2012 Improper Payment Test Plan for Acquisitions
         required that:

                 each invoice include elements of a proper invoice;10
                 invoices were submitted in accordance with contract terms and conditions;
                 payments were properly approved, paid promptly, in the correct amount, and a single
                  time; and
                 the routing and account numbers matched banking information from the Central
                  Contractor Registration (CCR) or the System for Award Management (SAM).11

         However, the SBA’s review did not conform, in all instances, to these requirements. Based on
         our analysis of the 42 payments using the SBA’s FY 2012 Improper Payment Test plan, we
         determined that had the agency adhered to the test plan, it should have identified 19 improper
         payments associated with these 42 payments. Instead, the SBA’s review identified
         seven improper payments.

         In addition, 3 of the 42 payments in our sample were not associated with a contract. Two of
         these payments were for legal settlements and one was for an Intergovernmental Personnel Act
         agreement. Since these three payments were not representative of disbursements related to
         contracting, they should have been removed from the SBA’s sample. Instead, SBA personnel
         applied the test plan to these payments as if they were disbursements related to contracting
         and classified many of the required attributes as having been met without exception or as “not
         applicable.” The SBA classified the three payments, which totaled about $83,000, as proper
         payments. While we did not assess the SBA’s entire sample, it is possible that other payments
         not related to contracting and disbursements were included in the SBA’s sample and classified
         as proper payments. Consequently, including the results of these unrelated payments may have
         impacted the improper payment rate calculation.

         The SBA’s Testing Resulted in Various Improper Payment Rate Calculations

         The SBA’s test results led to several different improper payment rate calculations. According to
         personnel from the SBA’s Office of the Chief Financial Officer (OCFO):

                 the first calculation, 9.6 percent, which the SBA reported in its FY 2012 AFR, included
                  payment, interest, and documentation errors;
                 the second calculation, 12.5 percent, consisted of documentation errors that were
                  identified and corrected after payment but prior to testing, or did not impact the SBA’s
                  ability to determine whether a payment was proper; and
                 the third calculation, 22.1 percent, represented the improper payment rate had the SBA
                  failed to correct the documentation errors identified in the second calculation .12




10
   Federal Acquisition Regulation (FAR) Part 32.905(b)(1)(i)-(x).
11
   The System for Award Management (SAM) combines the Central Contractor Registry (CCR), the Federal Agency
   Registration (Fedreg), the Online Representations and Certifications Application (ORCA), and the Excluded
   Parties List System (EPLS). The transition occurred on July 30, 2012.
12
   See Appendix III: Final Statistician Improper Payment Calculations for more information.

                                                            6
Further, OCFO personnel stated that based on the test results, these calculations, and OCFO
management determinations, the improper payment rate for disbursements and contracting
was 9.6 percent, as reported in the agency’s FY 2012 AFR. However, we determined that the
improper payment rate reported in the agency’s FY 2012 AFR for disbursements and contracting
was inaccurate and incomplete. Specifically, we found that the 9.6 percent improper payment
rate included only a portion of the total errors identified because the SBA did not properly apply
OMB reporting criteria for IPERA.

According to OMB guidance, an improper payment is any payment that should not have been
made or that was made in an incorrect amount under statutory, contractual, administrative, or
other legally applicable requirements. We found that the SBA did not report those errors that it
determined did not comply with federal regulations, such as invoices not having the appropriate
approval. We also found that the agency did not obtain approval from OMB allowing it to
exclude improper payments that were corrected after payment was issued or recovered prior to
reporting, as required. (Additional information and details on the types of documentation
errors excluded from the SBA’s reported improper payment rate is provided in Appendix IV.)
Therefore, we believe the SBA should have included those errors in the calculation of its
improper payment rate.

The SBA’s omission of some of the identified documentation errors resulted in a reported
FY 2012 improper payment rate of less than 10 percent, which is technically in compliance with
IPERA requirements. Since the reported rate was less than 10 percent, the SBA was not
required to perform corrective actions related to invoice payments for disbursements and
contracting. However, had the SBA reported the documentation errors identified in their testing,
findings, and results, the complete FY 2012 improper payment rate for disbursements and
contracting would have exceeded the 9.6 percent rate that the SBA reported.

Office of Internal Controls Review and Accuracy of Improper Payment Testing

We performed an analysis of the accuracy of the SBA’s testing and the improper payment rates
that the agency developed along with its statistician. This analysis included a review of 42 of the
216 payments that the SBA sampled for the FY 2012 improper payment review, valued
at $15.99 million. The CPA firm’s preliminary review identified 34 of the 42 payments as
potential improper payments. After receiving these findings, personnel from the Office of
Internal Controls reviewed invoices for which the CPA firm had identified as potential improper
payments.

Upon completion of its review, the Office of Internal Controls confirmed that only 7 of the
42 payments (16.7 percent) included in the OIG’s review were improper payments. The OIG’s
analysis of these same 42 payments revealed that 18 were improper (42.9 percent). See
Figure 2 for a comparison of the SBA’s and OIG’s findings.




                                            7
Figure 2 Percentage of Improper Payments



                                Improper Payments
                50%
                45%                               42.9%
                40%
                35%
                30%
                25%
                20%
                             16.7%
                15%
                10%
                 5%
                 0%
                          SBA Findings         OIG Findings


Approximately $7.63 Million in Improper Payments Related to 42 Invoices

Our review identified approximately $7.63 million in improper payments related to these
42 invoices, whereas the SBA’s review identified $1.92 million in improper payments related to
the same 42 invoices. The SBA determined that 35 of the 42 payments (83 percent) included in
our review were proper; however, we determined that only 24 of these 42 payments
(57 percent) were proper. Additional significant observations include the following:

       The call order associated with sample item 76 contained a Contract Line Item Number
        (CLIN) that listed a unit price of $18,580. However, the General Services Administration
        (GSA) Blanket Purchase Agreement listed the same CLIN at a unit price of $5,995. The
        contract documentation included a Price Negotiation Memorandum, which
        demonstrated that prices were reasonable as they were based on the GSA Schedule. In
        addition, based on the contract file documentation, there was no evidence that the SBA
        negotiated a price other than that which was included in the GSA Schedule. As a result,
        we determined that the agency overpaid by $12,585 for each of the four items, a total
        of $50,340. The SBA classified this sample item as a proper payment.
       The invoices for sample items 177, 178, and 181 contained charges for a labor category,
        CPICA CPIC Analyst, that were not authorized by the contract. Therefore, the
        cumulative payments, $235,310.01, for this labor category were improper. In its review,
        the SBA classified sample item 177 as an improper payment because it was approved for
        payment by unauthorized personnel. However, the SBA excluded sample item 177 from
        its reported improper payment rate. The SBA identified sample item 181 as an
        improper payment because it included an underpayment for interest penalties to the
        vendor. The SBA classified sample item 178 as a proper payment.


                                           8
                             The invoice for sample item 39 contained $279.33 in insurance fees and $82.75 in
                              overage charges not authorized by the contract. However, the SBA classified this
                              sample item as a proper payment.

            Figure 3 demonstrates the value of invoices included in our review that contained payment and
            documentation errors.13 It also shows a comparison between the SBA’s and the OIG’s findings.

            Figure 3 Value of Invoices Categorized by Finding Type


                          8                       $7.60
                          7
                          6
                                                                                                                SBA Findings
                          5
               Millions




                                                                                                                OIG Findings
                          4
                          3
                          2
                                        $0.86                                $1.06
                          1
                                                                                          $0.03
                          0
                                         Payment Errors                   Documentation Errors




13
     The Office of Internal Controls defined payment errors as those related to labor rates, payments for goods
     or services provided outside the period of performance, under- or overpayments, payment for an ineligible good
     or service, and errors related to banking information. In addition, the Office of Internal Controls defined
     documentation errors as instances in which documentation was missing, an invoice was not properly approved a
     COR letter was missing, or the COR letter was dated after invoice approval. The OIG also categorized its findings
     in this manner to maintain consistency with the SBA’s findings.

                                                                  9
FY 2012 Non-Compliance

As previously discussed, the SBA reported an inaccurate and incomplete improper payment rate
for FY 2012 disbursements and contracting. While we did not perform test work to determine
the exact improper payment rate for FY 2012 disbursements and contracting, we concluded that
the rate exceeded 10 percent. Specifically, we determined that the SBA excluded errors it
determined were caused by a lack of documentation from its reported improper payment rate,
which are further detailed in Appendix IV. Our review of the excluded errors identified
$1.55 million in improper payments that did not comply with applicable federal regulations.
Therefore, these payments should have been included in the SBA’s reported rate because they
were improper payments as defined by OMB guidance. The excluded payments represented
1.19 percent of all contract disbursements for FY 2012. Therefore, using this analysis, the SBA
should have reported an improper payment rate of at least 10.79 percent. In addition, our
analysis of 42 of the 216 payments that the SBA sampled for the FY 2012 improper payment
review determined that the SBA’s review did not identify all improper payments. Consequently,
the reported improper payment rate would have been higher than 10.79 percent if the SBA had
identified and included all improper payment errors. Had the SBA reported an accurate and
complete improper payment rate for FY 2012 disbursements and contracting, the agency would
have been required to perform, at a minimum, year one IPERA corrective actions.

Conclusion
The SBA inaccurately and incompletely reported improper payments for disbursements and
contracting and has not implemented appropriate IPERA corrective actions. The intent of IPERA
was to reduce improper payments by boosting transparency and holding agencies accountable
for reducing improper payments. As stated in OMB guidance, improper payment errors and
mistakes are unacceptable and continue to erode public trust at a time when taxpayers are
demanding that their dollars be spent wisely and effectively.

Recommendations
We recommend that the Small Business Administration (SBA) Chief Financial Officer:

1. Include all improper payment errors reportable under Office of Management and Budget
   (OMB) guidance in the improper payment rate calculation for FY 2013 or obtain OMB
   approval before excluding errors such as those identified in Appendix IV to this report.

2. Ensure that the individuals responsible for conducting the FY 2013 improper payment
   review for disbursements and contracting consistently adhere to the test plan.

3. Conduct a review of all invoices pertaining to contract number SBAHQ-11-F-0027 (sample
   item 39) and recover all unauthorized overage charges and insurance fees from the vendor.

4. Determine whether the charges for the CPICA CPIC Analyst labor category pertaining to
   contract number SBAHQ-10-D-0010 were proper and within the scope of the contract. If
   not, take appropriate action(s), including pursuing reimbursement from the vendor, to
   protect the interest of the government.



                                          10
Agency Comments and Office of Inspector General Response
On August 15, 2013, we provided a draft of this report to the SBA’s Office of the Chief Financial
Officer for comment. On September 16, 2013, SBA management submitted its formal written
comments, which are included in their entirety in Appendix V. Management concurred with
three of the seven recommendations, partially concurred with one recommendation and did not
concur with the remaining three recommendations. Based on management’s comments and
documentation provided by the OCFO, we revised the final report where necessary and
removed three recommendations. These changes are discussed in our evaluation of
management’s comments below. A summary of management’s general comments to the
report, recommendation-specific comments, and our response follows.

General Management Comments (1) - Background

The Chief Financial Officer (CFO) stated that it conducted an initial improper payment review
and documented those efforts in its FY 2011 Annual Financial Report (AFR). The CFO further
stated that the SBA did not report an 89 percent improper payment rate to OMB as reported by
the OIG. The CFO contended that the first year review of disbursements related to contracting
was part of an assessment process, and as confirmed by OMB, the agency was not required to
conduct both the risk assessment and establish the measurement and methodology within the
same year. As such, management believes that FY 2012 was the first year IPERA reporting was
required for contracting and disbursements.

The CFO stated that the CPA firm it contracted with to perform the improper payment testing
and to provide the statistical calculations required by IPERA completed both tasks, contrary to
what the OIG reported. Further, the CFO stated that the OIG did not request documentation
supporting how differences between the OCFO’s and the CPA firm’s review were resolved.
Management stated that it provided the OIG with the final test matrix, which they believed was
the most accurate. According to management, the OIG obtained the test matrix directly from
the CPA firm without approval from the COR. Therefore, OCFO had no knowledge of any
discrepancies.

OIG Response

The OIG previously addressed issues related to FY 2011 IPERA in OIG Report Number 12-07, The
SBA’s Improper Payment Review and Reporting for its Contracting Activities did not Comply with
IPERA and IPIA Requirements During FY 2011, issued on March 8, 2012. However, based on
management’s comments that they did not report a rate of 89 percent in the FY 2011 AFR, we
revised the final report to read as the “SBA published an improper payment rate of 89 percent
for disbursements and contracting” instead of reported.

The Inspector General Act of 1978 gives the OIG the authority to access all records that relate to
an audit. Therefore, the OIG did not require permission from the COR to request audit
documentation from the CPA firm contracted by the OCFO to conduct the IPERA review. The
CPA firm agreed to meet with the OIG and to discuss the testing they conducted for the IPERA
review. The project manager who supervised the IPERA review stated that his team obtained
and reviewed initial documentation and information for the SBA’s entire sample, but did not
validate and finalize findings with SBA procurement and finance personnel. In addition, the
project manager stated that he did not review the work performed by his staff because of the

                                           11
timing of the SBA’s request to cease all work related to the contract. Further, both the partner
of the CPA firm and the project manager stated that they completed a preliminary review but
did not conduct follow-up or verification of any exceptions, or reach any conclusions. As a
result, the OIG concluded that the CPA firm did not complete its IPERA review for contracting
and disbursements.

The OIG obtained documentation from the OCFO that showed the differences between the
OCFO’s review and the CPA firm’s review and the exceptions noted during each. After reviewing
this documentation, the OIG removed the sentence “None of the SBA’s documentation
identified or explained the differences between the two reviews and the exceptions noted
during each” from the final report.

General Management Comments (2) - Corrective Actions

Management stated that although it did not report an improper payment rate to OMB in its
FY 2011 AFR, it recognized the need for continuous improvement and created a Corrective
Action Plan for 2011, which was provided to the OIG. Management also stated that the
Corrective Action Plan was updated in 2012, at management’s own initiative, and the updated
plan was submitted to the OIG.

OIG Response

On December 7, 2012, the OIG received and accepted the OCFO’s Corrective Action Plan for
FY 2012. This plan also incorporated corrective actions for FY 2011.

General Management Comments (3) - Review of Improper Payments

Management stated that upon receipt of the OIG’s initial results in May 2013, the OCFO
provided the OIG with more information and documentation to resolve several issues identified
by the OIG. Therefore, the OCFO questions the OIG’s statement that the improper payment
rate reported in the AFR was significantly misstated. The OCFO believes that it has adequate
documentation to support its determination of payment propriety.

Management also disputed two improper payments—sample items 53 and 76—identified by
the OIG. Management stated that it has the labor rates associated with the contract for sample
item 53 and would provide the rate sheet to the OIG upon request. Management also stated
that the BPA for Sample Item 76 required a minimum of 10 items to receive the volume discount
of $5,995 per item. Because the SBA only required four items, it could not take advantage of
the discounted price and paid $12,585 per item.

OIG Response

The OIG conducted a thorough review of the 42 payments within our sample. We obtained the
contract files for each sample item from the SBA Denver Finance Center. We determined
whether each invoice was properly reviewed and paid by following the SBA’s Improper Payment
Test Plan. Upon receipt of our initial results in May 2013, the OCFO provided the OIG with
additional contract information to resolve documentation issues identified by the OIG.
While we were able to resolve most of the documentation issues with the information provided
by the OCFO, our findings remained intact. Further, we identified errors in the OCFO’s review
that were excluded in the SBA’s reported improper payment rate. Had the SBA included errors

                                           12
that did not comply with applicable federal regulations the SBA should have reported a rate of
at least 10.79 percent. In addition, our analysis of 42 of the 216 payments that the SBA sampled
for the FY 2012 improper payment review determined that the SBA’s review did not identify all
improper payments. Consequently, the reported improper payment rate would have been
higher than 10.79 percent if the SBA had identified and included all improper payment errors.

The OIG obtained the contract file for sample item 53 from the SBA Denver Finance Center.
We did not find documentation that contained labor rate categories within the contract file.
Upon request, the OCFO provided a copy of the labor rate sheet to the OIG. We contacted the
SBA Denver Finance Center to validate the labor rate sheet and confirmed that it was
incorporated in the contractor’s proposal, which was not included in the contract file at the time
of our site visit. As a result, we removed sample item 53 as an improper payment from the final
report.

The call order associated with sample item 76 contained a CLIN that listed a unit price of
$18,580. However, the GSA Blanket Purchase Agreement listed the same CLIN at a unit price of
$5,995. The contract documentation included a Price Negotiation Memorandum, which
demonstrated that prices were reasonable as they were based on the GSA Schedule. The
contract file did not contain evidence that the SBA negotiated a price other than that which was
included in the GSA Schedule. Management did not provide documentation that showed any
price negotiation that resulted in a price of $12,585 per item. As a result, we maintain the
position that the agency overpaid by $12,585 for each of the four items, a total of $50,340.

Recommendation 1 - Include all improper payment errors reportable under Office of
Management and Budget (OMB) guidance in the improper payment rate calculation for
FY 2013 or obtain OMB approval before excluding errors such as those identified in
Appendix IV to this report.

        Management Comments

        Management concurred with the recommendation. The OCFO stated that it will seek
        OMB guidance on specific items to include in the test plan for improper payments as a
        means to be consistent with other agencies. Management stated that the OIG required
        test steps that may not be consistent with other agencies. For example, the OIG
        required the documentation of COR appointment letters in 2011 and 2012 but they are
        not required in 2013.

        OIG Response

        Management’s comments were responsive to our recommendation. We consider the
        management decision for this recommendation as resolved and the recommendation
        will remain open pending final action. However, we disagree with the comment that
        the OIG required the documentation of COR letters in 2011 and 2012 in the SBA’s test
        plan but not in 2013. As stated in the OIG audit, The SBA’s Improper Payment Review
        and Reporting for its Contracting Activities did not Comply with IPERA and IPIA
        Requirements During FY 2011, Report Number 12-07, issued on March 8, 2012, the OIG
        believes that management should reassess its test plan using other knowledgeable
        contracting personnel and their own reassessment of their process. Further, while the
        OIG has made observations, it is not the OIG’s role to develop OCFO’s test plan. The

                                           13
       agency should consider the adequacy of its test plan based on its own analysis and
       expertise in the acquisition area.

Recommendation 2 - Include a footnote in the FY 2013 AFR stating that the FY 2012 reported
improper payment rate for disbursements and contracting was inaccurate unless further
guidance from OMB indicates errors such as those identified in Appendix IV to this report
should be excluded from the SBA’s improper payment rate calculation.

       Management Comments

       Management did not concur with this recommendation. Management stated that its
       FY 2012 Improper Payment methodology and rate were consistent with its testing plan.

       OIG Response

       The OIG removed this recommendation from the final report. By concurring with
       Recommendation 1, management has demonstrated that going forward it plans to work
       with OMB to refine its test plan and report the improper payment rate in accordance
       with OMB guidance.

Recommendation 3 - Conduct year two IPERA corrective actions, as required by OMB
guidance. Specifically, work with the OMB Director to review SBA’s disbursements and
contracting to determine whether additional funding would help the agency come into
compliance.

       Management Comments

       Management did not concur with this recommendation. Management stated that it
       completed its first year of reporting of disbursements related to contracting in 2012 and
       therefore is not subject to OMB’s guidance for second year reviews. Additionally, the
       agency does not believe additional funding is necessary for IPERA compliance.

       OIG Response

       The OIG removed this recommendation from the final report. Management completed
       year one IPERA corrective actions in FY 2012. Based on management’s statement that
       additional funding is not necessary for IPERA compliance, we determined that
       completing IPERA year two corrective actions would unduly burden the agency’s limited
       resources.

Recommendation 4 - Ensure that the individuals responsible for conducting the FY 2013
improper payment review for disbursements and contracting consistently adhere to the test
plan.

       Management Comments

       Management concurred with this recommendation. Management stated that the test
       plan has always been followed, as demonstrated by the completed test matrix that
       mirrors the test plan. OCFO will continue to follow the test plan as it has every year.



                                          14
       OIG Response

       Management’s comments were responsive to our recommendation. We consider the
       management decision for this recommendation as resolved and the recommendation
       will remain open pending final action.

Recommendation 5 - Conduct a review of all invoices pertaining to contract number
SBAHQ-11-F-0027 (sample item 39) and recover all unauthorized overage charges and
insurance fees from the vendor.

       Management Comments

       Management partially concurred with this recommendation. Management stated that
       there is no evidence that overage charges and insurance fees were part of the contract.
       The OCFO will perform a review of SBAHQ-11-F-0027 to determine what unauthorized
       charges may have occurred and take appropriate action based on the results. The OCFO
       partially concurred because the recommendation says in part to “recover all
       unauthorized overage charges and insurance fees from the vendor.” Management
       stated that it will determine if recovering the funds is in the best interest of the
       government.

       OIG Response

       Management’s comments were responsive to our recommendation. The OIG believes
       that it is in the best interest of both the government and the taxpayers for the OCFO to
       recover all unauthorized overage charges and insurance fees from the vendor if it can be
       done in a cost-effective manner. We consider the management decision for this
       recommendation as resolved and the recommendation will remain open pending final
       action.

Recommendation 6 - Determine whether an unauthorized commitment(s) occurred for the
services performed after the expiration date of call order SBA0001 for contract number
SBAHQ-09-A-0024 (sample item 150). If an unauthorized commitment occurred, determine
whether ratification or other action is appropriate.

       Management Comments

       Management did not concur with this recommendation. Management stated that the
       invoice associated with sample item 150 refers to an incorrect call number, presumably
       due to a clerical error. OCFO confirmed the invoice billing rates and period of
       performance to call order SBA0003 and determined the invoice was properly paid from
       the call’s corresponding obligation.

       OIG Response

       On May 22, 2013, we conducted a teleconference with the Acquisition Division Director
       regarding call order SBA0001. He confirmed that according to the SBA's records, call
       order SBA0001 was issued with a period of performance of September 28, 2009,

                                         15
       through September 27, 2010. The Acquisition Director also confirmed that no options
       were exercised and the period of performance was not extended via modification. The
       invoice for sample item 150 was for services performed between November 28, 2011,
       and December 4, 2011, more than a year after the call order period of performance
       ended. Therefore, we concluded that the cumulative payments were improper.
       However, based on management’s comments to the draft report, the OIG conducted an
       independent verification in FPDS-NG of all call orders for SBAHQ-09-A-0024. We
       confirmed that call order SBA0003 was in fact issued with a period of performance that
       correlated with the period of performance for sample item 150. As a result of this new
       information, we removed Recommendation 6 from the final report. However, since the
       invoice for sample item 150 did not include the correct call order number, it did not
       meet FAR requirements for a proper invoice and should not have been paid. Therefore,
       sample item 150 remained classified as an improper payment.

Recommendation 7 - Determine whether the charges for the CPICA CPIC Analyst labor
category pertaining to contract number SBAHQ-10-D-0010 were proper and within the scope
of the contract. If not, take appropriate action(s), including pursuing reimbursement from the
vendor, to protect the interest of the government.

       Management Comments

       Management concurred with this recommendation. Management stated that the CPICA
       CPIC Analyst labor category did not appear on Task Order SBA0001; however, the rate
       was the same as a Project Manager. Management stated that it will research and
       determine if the payments were proper and take appropriate action based on the
       results.

       OIG Response

       Management’s comments were responsive to our recommendation. We consider the
       management decision for this recommendation as resolved and the recommendation
       will remain open pending final action.




                                          16
Appendix I: Scope and Methodology
We conducted this audit from November 2012 to May 2013 in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions based on
our audit objectives. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives.

There were two objectives for this audit: 1) to determine whether Small Business Administration (SBA)
management designed and implemented invoicing and payment processes for disbursements and
contracting that will prevent improper payments and identify them after payment has been made, and
2) to determine the accuracy of the SBA’s reported FY 2012 improper payment rate for contracting
activity invoices.

Between April 1, 2011, and March 31, 2012, the SBA made 7,622 disbursements for goods and services,
totaling approximately $130 million. The SBA’s FY 2012 improper payment review for disbursements
and contracting consisted of a sample of 216 unique invoices, valued at approximately $47 million.
Based on the results of its review, the SBA reported a 9.6 percent or $12.5 million improper payment
rate for disbursements and contracting in its FY 2012 Agency Financial Report (AFR).

Due to the reduction in the improper payment rate for disbursements and contracting (from 89 percent
in FY 2011 to 9.6 percent in FY 2012) and the results of the Office of Inspector General’s (OIG’s) FY 2012
Improper Payment Elimination and Recovery Act (IPERA) review, the audit team initiated a thorough
review of the agency’s transactions for disbursements and contracting. To achieve our audit objectives,
we identified the SBA’s sample of 216 unique invoices as our universe and developed a statistical and
judgmental sample of 42 invoices to review. The judgmental portion of our sample included the ten
percent of invoices with the highest value, as well as all invoices that were not associated with an SBA
contract number. We statistically selected an additional ten percent of invoices using a stratified
random sampling method. We obtained copies of these invoices from the Joint Administrative
Accounting Management System (JAAMS) and reviewed the electronic approvals for each. The audit
team also reviewed the associated contract files to obtain the base contract, all modifications, all task
and delivery orders, and all Contracting Officer Representative (COR) designation letters. By following
the SBA’s approved Improper Payment Test Plan, we determined whether each invoice was properly or
improperly reviewed and paid. Additionally, we documented the number and types of errors identified,
if any. To obtain an understanding of the development and performance of the FY 2012 improper
payments review for disbursements and contracting, the audit team interviewed personnel from the
CPA firm responsible for the agency’s initial review. We also interviewed personnel from the Office of
the Chief Financial Officer (OCFO) and the Denver Finance Center.

Use of Computer Processed Data
We obtained view-only access to the SBA’s accounting management system, JAAMS, in order to retrieve
invoices, payment data, and electronic approvals for each transaction that we reviewed. Because we
were unable to obtain access to Automatic Clearing House (ACH) bank account information in JAAMS,
we relied on personnel from the SBA Denver Finance Center to obtain ACH bank account information
from the System for Award Management (SAM), formerly the Central Contractor Registry (CCR).
In addition, we obtained copies of General Services Administration (GSA) contracts associated with our
sample invoices via the GSA Schedules website at www.gsa.gov/portal/category/100611.


                                                    17
Prior Coverage
The SBA Office of Inspector General issued the following three reports related to the agency’s
FY 2011 and FY 2012 improper payment reviews for disbursements and contracting:

    1. Report Number 12-07, issued March 8, 2012, The Small Business Administration’s Improper
       Payment Review and Reporting for its Contracting Activities did not Comply with Improper
       Payment Elimination and Recovery Act and Improper Payment Information Act Requirements
       during FY 2011. The OIG reported that the SBA inadequately planned, executed and reported its
       FY 2011 improper payment review for contracting activities. Specifically, the SBA test plan was
       inadequate, personnel that performed the review lacked knowledge of agency contracting
       practices, and the improper payment rate for contracting activities was incomplete and not
       reported in accordance with Office of Management and Budget (OMB) guidance.

    2. Report Number 12-10, issued March 15, 2012, The Small Business Administration Generally
       Meets Improper Payment Elimination and Recovery Act Reporting Guidance but Immediate
       Attention Is Needed to Prevent and Reduce Improper Payments. The OIG reported that the SBA
       generally met minimal IPERA reporting requirements for FY 2011. In addition, the review found
       that the SBA needed to improve the accuracy and completeness of reporting, the sufficiency of
       improper payment recapture activities, and the quality of corrective action plans. Further, the
       audit team identified significant internal control weaknesses in the accuracy and completeness
       of reported information, and the use and deployment of corrective action plans.

    3. Report Number 13-13, issued March 14, 2013, Evaluation of SBA’s Progress in Reducing
       Improper Payments in FY 2012. The OIG reported that the SBA’s efforts to prevent and reduce
       improper payments have resulted in significant progress since the FY 2011 assessment. In
       addition, the SBA was generally compliant in meeting the minimum requirements in accordance
       with OMB guidance. Further, the SBA generally met all IPERA reporting requirements, although
       the audit team was unable to evaluate the accuracy and completeness of improper payments
       reported for disbursements and contracting.




                                                   18
 Appendix II: Payments Reviewed by the OIG
Sample                                                             Total
Number           Invoice Number                Invoice Date       Paid ($)           Contract Number
  7      001033(010312)                        3 January 2012    $ 166,486.40          SBAHQ-09-C-0021
  11     002025(050211)                          2 May 2011        375,281.52          SBAHQ-09-C-0021
  13     002027(070111)                          1 July 2011       381,016.04          SBAHQ-09-C-0021
  20     002035(030112)                         1 March 2012       418,093.44          SBAHQ-09-C-0021
  33     031312SA                              13 March 2012        40,000.00   Not associated with a contract.
  36     0600991619(053111)                     31 May 2011        460,665.39          SBAHQ-08-A-0043
  39     0998097976(072311)                      23 July 2011        8,776.91          SBAHQ-11-F-0027
  40     1007513802(033111)                    31 March 2011       542,660.25          SBAHQ-08-F-0282
  41     1007513802(033111)A                   31 March 2011       542,660.30          SBAHQ-08-F-0282
  42     1007513803(063011)                     30 June 2011       542,660.30          SBAHQ-08-F-0282
  43     1007513803(063011)A                    30 June 2011       542,660.25          SBAHQ-08-F-0282
  44     1007513804(093011)A                 30 September 2011     542,660.27          SBAHQ-08-F-0282
  45     1007513804(093011)B                 30 September 2011     542,660.28          SBAHQ-08-F-0282
  50     1038816801(123111)                  31 December 2011    1,176,590.00          SBAHQ-08-F-0282
  53     1040317(091011)                     10 September 2011     339,083.91          SBAHQ-10-C-0019
  56     11(083111)                            31 August 2011       84,263.61          SBAHQ-10-C-0038
  63     1290011(091511)                     15 September 2011      20,665.56          SBAHQ-10-C-0051
  64     1303030Q0025RAT                     27 September 2011     421,689.84    Ratification for Unauthorized
                                                                                      Procurement Action
  65     15048844(081811)                      18 August 2011     512,804.32           SBAHQ-09-C-0033
  66     15048844A(081811)                     18 August 2011     512,804.33           SBAHQ-09-C-0033
  76     1784(091911)                        19 September 2011    454,897.11           SBAHQ-11-F-0127
  81     2011077(123111)                     30 December 2011     250,478.72           SBAHQ-11-D-0003
  87     2020530002(012011)                   20 January 2011      29,009.96    Not associated with a contract.
  96     27SEP2011(092711)                   27 September 2011    233,443.94           SBAHQ-10-C-0028
 106     452124(090111)A                     1 September 2011       2,374.00           SBAHQ-11-M-0059
 109     5(112111)                           21 November 2011     501,515.43           SBAHQ-11-D-0002
 120     6425(040911)                            9 April 2011      29,484.54           SBAHQ-09-C-0008
 126     8(053111)                              31 May 2011        60,774.62           SBAHQ-10-C-0031
 133     B00431727(102111)                    21 October 2011     863,987.91           SBAHQ-10-F-0255
 137     CP84438r2(062011)                      20 June 2011      711,059.67           SBAHQ-07-F-0040
 139     DC075211043I1                          23 June 2011       13,500.00    Not associated with a contract.
 143     FMLP008(093011)                     30 September 2011    828,418.50           SBAHQ-07-C-0017
 150     INV0000000108(010912)                 9 January 2012      94,969.00           SBAHQ-09-A-0024
 167     INV0601062544001(101911)             19 October 2011     446,145.00           SBAHQ-08-A-0043
 168     INV0601062548(101911)                19 October 2011     534,882.27           SBAHQ-08-A-0043
 169     INV0601062548A(101911)               19 October 2011     534,941.70           SBAHQ-08-A-0043
 177     INV060194947(060611)                    6 June 2011      378,900.69           SBAHQ-10-D-0010
 178     INV060197593(070611)                    6 July 2011      333,875.31           SBAHQ-10-D-0010
 181     INV060203331(100611)                  6 October 2011     455,480.58           SBAHQ-10-D-0010
 185     INV102111SBALEASE004FINAL(102111)    21 October 2011     629,149.00           SBAHQ-07-M-0411
 199     SBAIM0079(051011)                      10 May 2011       101,669.12           SBAHQ-08-C-0009
 204     SBAW048(033111)                       31 March 2011      322,399.83           SBAHQ-07-C-0009




                                                  19
Appendix III: Final Statistician Improper Payment Calculations

This table represents the SBA statistician’s final improper payment rate calculations for contracting and
disbursements. The SBA requested that its statistician calculate various improper payment rates in
order to identify high-risk areas for improper payments within contracting and disbursements.

Total Payments: $129,905,921.74

                                                       Payment,
                 Total Payment                       Interest, and     Payment         Sample Count
                  and Interest    Documentation     Documentation      Accuracy       (including items
    Strata         Accuracy          Accuracy          Accuracy       Without CCR     sampled twice)
 100 Percent
                 $3,670,249.00    $1,245,293.00     $4,914,542.00     $3,141,945.00          75
   Sample
 PPS Sample      $8,841,022.00    $14,933,490.00    $23,774,512.00    $4,500,116.00         150
  Improper
                $12,511,271.00    $16,178,783.00    $28,690,054.00    $7,642,061.00         225
Payment Total
  Improper
  Payment            9.6%             12.5%             22.1%             5.9%
 Percentage




                                                   20
Appendix IV: Documentation Errors the SBA Identified in its Review but
Excluded from Its Improper Payment Rate Calculation

Sample          Invoice           Total Paid ($)       The SBA’s Description of Error              Federal Regulation
Number          Number                                                                              Non-Compliance
  35     0600955902R(030111)A      $420,247.00     Approval by Contracting Officer (CO) or         Federal Acquisition
                                                   Contracting Officer’s Representative            Regulation (FAR)
                                                   (COR) / Point of Contact (POC) was not          32.905(c).
                                                   evident.
  37     06291102(062911)           32,203.50      Vendor address not listed on invoice.           FAR 32.905(b)(1)(i).
  38     07151101(071511)           27,889.00      Vendor address not listed on invoice.           FAR 32.905(b)(1)(i).
  46     100SBA(072611)             97,831.16      Invoice does not reference contract             FAR 32.905(b)(1)(iii).
                                                   number.
  57     11103(050211)             203,557.49      Approval by CO or COR / POC was not             FAR 32.905(c).
                                                   evident.
  74     160287948(072211)          2,114.12       Invoice does not reference contract             FAR 32.905(b)(1)(iii);
                                                   number; Approval by CO or COR/POC was           FAR 32.905(c); FAR
                                                   not evident; Contract stated to reference       32.905(b)(1)(x).
                                                   requisition and contract numbers but the
                                                   invoice does not reference these
                                                   numbers.
  98     3(022212)                  35,000.00      Contract lists 14 cities for training events.   31 U.S.C. §
                                                   The invoice was for a conference in             1501(a)(1).
                                                   Orlando, Florida, which was not one of
                                                   the 14 cities. Per discussion with COR, the
                                                   training event location changed from New
                                                   Orleans to Orlando. A contract
                                                   modification was not done. The CO later
                                                   offered to complete a modification to
                                                   bring the contract into compliance.
  128    823606757(100111)          37,519.61      Approval by CO or COR / POC was not             FAR 32.905(c).
                                                   evident.
  146    INV0000000069(060311)     119,272.00      Approval by CO or COR / POC was not             FAR 32.905(c).
                                                   evident.
  172    INV060175424(030311)       55,255.55      Approval by CO or COR / POC was not             FAR 32.905(c).
                                                   evident.
  177    INV060194947(060611)      378,900.69      Approval by CO or COR / POC was not             FAR 32.905(c).
                                                   evident.
  188    L0052(050411)             138,722.44      Vendor address not listed on invoice.           FAR 32.905(b)(1)(i).
                          TOTAL   $1,548,512.56




                                                     21
Appendix V: Agency Comments


                                          U.S. SMALL BUSINESS ADMINISTRATION

                                                WASHINGTON, D.C. 20416




   To:    Robert A. Westbrooks
          Assistant Inspector General for Auditing

   From: Jonathan I. Carver
         Chief Financial Officer

   Date: September 16, 2013

   Re:    Response to Draft Report on SBA’s FY 2012 Reported Improper Payment Rate for
          Disbursements and Contracting was Inaccurate and Incomplete


   In the subject report, the Office of Inspector General states that the Agency inaccurately and
   incompletely reported improper payments for disbursements and contracting and has not
   implemented appropriate Improper Payment Elimination and Improvement Act of 2012 (IPERA)
   corrective actions. The Office of the Chief Financial Officer takes the accuracy of payments and
   the reporting of improper payments very seriously and has taken significant steps to improve
   implementation of IPERA.

   Response to Draft Report

   Background

   The report states that OCFO published an 89 percent improper payment rate for 2011 and did not
   identify a root cause for this improper payment rate, as required by OMB. The OCFO conducted
   an initial improper payment review and documented those efforts in the 2011 Annual Financial
   Report (AFR). The SBA did not report an 89 percent improper payment rate to OMB. The first
   review year of disbursements related to contracting was part of the assessment process, as
   outlined in OMB’s IPERA guidance and discussed in the AFR. The reporting requirements,
   confirmed by OMB, do not require the agency to conduct both the risk assessment (Step 1) and
   establish the measurement and methodology (Step 2) within the same year. As such, Steps 3 and
   4 (Implementing a plan to reduce improper payments and Reporting annual estimates and
   progress in reductions, respectively) were conducted in 2012, the first year that reporting
   estimated rates was applicable. In consultation with OMB and the OIG, the 2011 assessment

                                                 22
was reflected in the AFR narrative but did not report any estimated rates in the requisite
reporting table. The root cause was also documented in the AFR. After the 2011 review the
OCFO implemented the OIG’s recommendations to enhance the first year of reporting in 2012.

In 2012, OCFO contracted with a CPA firm to perform improper payment testing and to provide
the statistical calculations required by IPERA. The CPA firm completed both tasks, contrary to
what the OIG report indicates. The OIG has given no evidence to indicate that the CPA firm did
not finish their work and the Contracting Officer Representative (COR) has verified that the
service was delivered. OCFO reviewed the CPA firm’s test matrix to ensure it was complete and
further assessed any exceptions that were noted. During the review of exceptions, OCFO located
or obtained missing documentation to determine the payment to be proper in many cases, which
is consistent with OMB guidance. Although the OIG report states “None of SBA’s
documentation identified or explained the differences between the two reviews and the
exceptions noted during each,” OCFO has documentation to demonstrate how each issue was
resolved, but was never asked by the OIG to provide such documentation. OCFO provided the
OIG with the final test matrix which was believed to be the most accurate. OIG obtained the
contractor’s test matrix directly from the CPA firm, without approval from the COR; therefore,
OCFO had no knowledge of the discrepancy issue.

Corrective Actions

Although OCFO did not report an improper payment rate to OMB in 2011, it recognized the
need for continuous improvement and created a Corrective Action Plan for 2011, which was
provided to the OIG to demonstrate its commitment to accurate payment processing. To
reinforce these efforts, the Corrective Action Plan was updated in 2012, at our own initiative, and
the updated plan was submitted to the OIG.

Review of Improper Payments

To conduct their review, the OIG obtained invoices and contract documentation independent
from OCFO’s improper payment review documentation. Upon receiving the initial results of
their review in May 2013, OCFO provided more information or documentation to resolve several
issues noted by the OIG. OCFO therefore questions the report’s statement that the improper
payment rate reported in the AFR is significantly misstated. OCFO believes it has adequate
documentation to support its determination of payment propriety as reported. As an example,
the report contains observations for two specific contracts not included in the recommendations
that again demonstrate documentation exists that supports OCFO’s test results:

      Sample item 53 for $339,083.91 is associated with a contract that OIG states did not
       include labor rates for personnel based on position type and therefore the OIG could not
       determine if the invoice matched the contracted rates. OCFO determined this sample
       item as proper as the labor rates associated with the contract were obtained. The rate
       sheet can be provided if requested by the OIG.
      Sample item 76 states a contract line item number was paid at a unit price of $18,580
       while the contractor’s General Services Administration (GSA) Blanket Purchase
       Agreement (BPA) listed the same unit at a price of $5,995, indicating an overpayment of

                                                23
      $12,585 for the unit. The BPA required a minimum of 10 items be purchased to receive
      the volume discounted price of $5,995 per unit; SBA had a need for only four items,
      therefore only four were purchased. Because the minimum order was not met, SBA
      could not take advantage of the discounted price.

Management’s response to the recommendations in the draft report is noted as follows:

   1. Include all improper payment errors reportable under Office of Management and
      Budget (OMB) guidance in the improper payment rate calculation for FY 2013 or
      obtain OMB approval before excluding errors such as those identified in Appendix
      IV to this report.

      OCFO concurs with this recommendation. OCFO will seek OMB guidance on specific
      items to include in the test plan for improper payments as a means to be consistent with
      other agencies. This is an important step as the OIG has required test steps which may
      not be consistent with other agencies. As an example, the OIG required the
      documentation of COR appointment letters in 2011 and 2012 but they are not required in
      2013.

   2. Include a footnote in the FY 2013 AFR stating that the FY 2012 reported improper
      payment rate for disbursements and contracting was inaccurate unless further
      guidance from OMB indicates errors such as those identified in Appendix IV to this
      report should be excluded from the SBA’s improper payment rate calculation.

      The OCFO does not concur with this recommendation. The FY 2012 Improper Payment
      methodology and rate is consistent with our testing plan.

   3. Conduct year two IPERA corrective actions, as required by OMB guidance.
      Specifically, work with the OMB Director to review SBA’s disbursements and
      contracting to determine whether additional funding would help the agency come
      into compliance.

      OCFO does not concur with this recommendation. OCFO completed its first year of
      reporting of disbursements related to contracting in 2012 and therefore is not subject to
      OMB’s guidance for second year reviews. Additionally, the agency does not believe
      additional funding is necessary for IPERA compliance.

   4. Ensure that the individuals responsible for conducting the FY 2013 improper
      payment review for disbursements and contracting consistently adhere to the test
      plan.

      OCFO concurs with this recommendation. The test plan has always been followed, as
      demonstrated by the completed test matrix which mirrors the test plan. OCFO will
      continue to follow the test plan as it has every year.




                                              24
   5. Conduct a review of all invoices pertaining to contract number SBAHQ-11-F-0027
      (sample item 39) and recover all unauthorized overage charges and insurance fees
      from the vendor.

       OCFO partially concurs with this recommendation. There is no evidence that overage
       charges and insurance fees are part of the contract. OCFO will perform a review of
       SBAHQ-11-F-0027 to determine what unauthorized charges may have occurred and take
       appropriate action based on the results.

   6. Determine whether an unauthorized commitment(s) occurred for the services
      performed after the expiration date of call order SBA0001 for contract number
      SBAHQ-09-A-0024 (sample item 150). If an unauthorized commitment occurred,
      determine whether ratification or other action is appropriate.

       OCFO does not concur with this recommendation. The invoice associated with sample
       item 150 refers to an incorrect call number, presumably due to a clerical error. OCFO
       confirmed the invoice billing rates and period of performance to call SBA0003 and
       determined the invoice was properly paid from the call’s corresponding obligation.

   7. Determine whether the charges for the CPICA CPIC Analyst labor category
      pertaining to contract number SBAHQ-10-D-0010 were proper and within the scope
      of the contract. If not, take appropriate action(s), including pursuing
      reimbursement from the vendor, to protect the interest of the government.

       OCFO concurs with this recommendation. The CPICA CPIC Analyst labor category
       does not appear on Task Order SBA0001; however, the rate is the same as a Project
       Manager. OCFO will research and determine if the payments were proper and take
       appropriate action based on the results.


Thank you for the opportunity to review the draft report. Please let me know if you need
additional information or have any questions regarding our response.




                                               25
